\

CERTIFICATE OF SERVICE
I, Abdul Mohammed, the Pro Se Petitioner, hereby certifies that on this 16th Day
of July 2020, I caused a copy of the Writ of Mandamus of the Petitioner to be
served by USPS First Class Mail and email to all the Respondents. I further
certify that all parties required to be served have been served.
Respectfully submitted,
.
Abdul Mohammed
aJ
Pro Se Petitioner
258 E. Bailey Rd, Apt C,
Naperville, IL 60565
630-854-5345
amohammed@hotmail.com

40

